<html>
<title> - NOMINATION OF THE HON. CHAD F. WOLF</title>
<body><pre>[Senate Hearing 116-476]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-476

                    NOMINATION OF HON. CHAD F. WOLF

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              
                           SEPTEMBER 23, 2020

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-959 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
               Andrew J. Timm, Professional Staff Member
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Portman..............................................    15
    Senator Hassan...............................................    17
    Senator Lankford.............................................    20
    Senator Rosen................................................    23
    Senator Scott................................................    26
    Senator Carper...............................................    28
    Senator Hawley...............................................    31
    Senator Sinema...............................................    34
Prepared statements:
    Senator Johnson..............................................    37
    Senator Peters...............................................    39

                               WITNESSES
                     Wednesday, September 23, 2020

Hon. Ted Cruz, a United States Senator from the State of Texas
    Testimony....................................................     4
    Prepared statement...........................................    41
Hon. Chad F. Wolf to be Secretary of the U.S. Department of 
  Homeland Security
    Testimony....................................................     6
    Prepared statement...........................................    43
    Biographical and professional information....................    46
    Letter from U.S. Office of Government Ethics.................    66
    Responses to pre-hearing questions...........................    69
    Responses to post-hearing questions..........................   303
    Letters of support...........................................   386
    Opposition letters...........................................   406

                                APPENDIX

Thompson letter..................................................   298
Domestic Extremist-Related Murders in the U.S. Chart.............   414

 
                  NOMINATION OF THE HON. CHAD F. WOLF

                              ----------                              


                     WEDNESDAY, SEPTEMBER 23, 2020

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Senate Dirksen Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Sinema, and Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. Let me 
first apologize for not being there in person. I came in close 
contact with somebody last Monday that tested positive. That 
individual is doing very well, with very mild symptoms. I have 
had no symptoms and tested negative this Monday as well. But I 
am here in Oshkosh and having to do this remotely so I 
apologize for that.
    Today we are meeting to consider the nomination of Acting 
Secretary of Homeland Security, Chad Wolf, to be the confirmed 
Secretary of the Department of Homeland Security (DHS), which 
is an enormous task. I have stated this in the past. I truly 
appreciate anybody who is willing to undertake such an enormous 
responsibility.
    I would ask that my written opening remarks be entered into 
the record.\1\ Without objection we will do that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I will keep it short because I know we have time 
constraints here. But a quick description of what an enormous 
challenge this is. The Secretary of Homeland Security manages 
240,000 people in the Department. The responsibilities for 
Homeland Security are vast. I will start with Federal Emergency 
Management Agency (FEMA), that has to deal with hurricanes and 
wildfire and now coronavirus disease (COVID), amongst many 
other responsibilities. Border security, a huge issue. We have 
not fixed that problem, not by a long stretch. But this 
administration has done a pretty good job of stopping the out-
of-control, illegal entry that we were experiencing over a year 
ago.
    Cybersecurity and Infrastructure Security Agency (CISA). 
This Department is concerned about cybersecurity, election 
security, security over our critical infrastructure. As we 
witnessed with some of the protests that have sprung into 
riots, also protecting our Federal buildings, and, of course, 
we tragically lost David Patrick Underwood in Oakland, 
California, a member of the Federal Protection Services (FPS).
    Again, the responsibilities are enormous. I do not envy any 
Secretary of Homeland Security's task. I truly appreciate 
anybody willing to serve in this capacity.
    One quick word. I do want to talk about, from my 
standpoint, what an extraordinary job DHS and, quite honestly, 
this administration has done in dealing with COVID. I know that 
is not the narrative in the mainstream media, and from many of 
my colleagues, but the fact of the matter is I come from a 
manufacturing background. I understand a difficult situation.
    COVID is an act of God, and if you think back to the 
beginning of this, when we were concerned about running out of 
ventilators, we did not. The President invoked the Defense 
Production Act and we have produced ventilators at a record 
pace, and nobody ran out.
    Personal protective equipment (PPE). I know it was not 
perfect. I know people did not get everything they wanted. But 
again, nobody ran out, and that was dealing with a very 
difficult situation where demand outstripped supply by two to 
three times. We heard that in testimony before this Committee.
    I know the Acting Secretary. I know Pete Gaynor. I know the 
men and women throughout the Federal agencies that are dealing 
with COVID. They have been working 24/7, and from my standpoint 
they have done a pretty extraordinary job dealing with a very 
difficult situation.
    What is unfortunate, someone like Acting Secretary Wolf, I 
said the exact same thing with Louis DeJoy in a hearing with 
the Postmaster General. Not only is it a thankless task but it 
is a task that unfortunately opens you up to character 
assassination as well. I find that very unfortunate. 
Personally, I want to thank you and the men and women that 
serve with you in the Department for working tirelessly to try 
and keep our homeland secure, keep this nation safe, and 
dealing with all these enormous issues that you are dealing 
with, day in and day out, like I said, 24/7.
    Again, Acting Secretary Wolf, thank you for your past 
service. Thank you for your willingness to serve in this 
capacity as well, and I welcome you and any guests that you 
might have brought to the hearing room. If you did, I hope you 
can introduce some of your family members.
    With that I will turn it over to Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Mr. Chairman, and thank you, 
Acting Secretary Wolf, for being here and for your willingness 
to serve. Today we are considering the nomination of Chad Wolf 
to be the Secretary of Homeland Security, and under this 
administration we have seen, unfortunately, an unprecedented 
willingness to abandon the norms of Senate-confirmed Cabinet 
officials. This has been a particular problem at the Department 
of Homeland Security, the country's third-largest agency and an 
absolute critical part of safeguarding our national security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appear in the Appendix 
on page 39.
---------------------------------------------------------------------------
    Vacancies and acting officials are part of every 
administration, but they should be rare. This administration 
has abused vacancies to the detriment of this Department. The 
President refused to formally nominate a leader for the DHS for 
more than 500 days, a move that was not only legally 
questionable but created chaos and confusion at the agency 
charged with addressing numerous threats to our national 
security.
    The Department cannot successfully tackle the serious 
challenges it faces without strong, steady, and independent 
leadership. While Mr. Wolf has experience at the Department, 
primarily as a chief of staff but also as an Under Secretary 
and now Acting Secretary, he has been involved in some of the 
most controversial and concerning decisions the Department has 
made. These decisions warrant a critical review of Mr. Wolf's 
record and call into question whether he is the right person 
for this critical role.
    Under Mr. Wolf's leadership, the Department has faced 
daunting challenges, asylum seekers at our Southern border, the 
pandemic, civil unrest, and deadly wildfires and hurricanes. 
While these challenges would strain even the most prepared 
staff, I am concerned by reports of slow decisionmaking and the 
sidelining of experts, reports that raise serious questions 
about the judgment and independence of agency leaders.
    I am also concerned by how the Department has failed to 
adequately address the rise of domestic terrorism and white 
supremacist violence.
    As you can see, I have a graph\1\ here behind me. As you 
can see from this graph, the data shows that extremism based in 
white nationalism, anti-Semitism, and other ideologies account 
for more than 77 percent of domestic terror murders in the 
United States. Yet recent reports and statements from former 
DHS employees have indicated that the White House, in 
cooperation with Mr. Wolf, have downplayed this threat in 
public risk assessments. Rhetoric and political ideology cannot 
drive intelligence reports, and it should not predetermine the 
actions of any Federal department.
---------------------------------------------------------------------------
    \1\ The graph referenced by Senator Peters appear in the Appendix 
on page 414.
---------------------------------------------------------------------------
    While the threat of domestic terror is not new, the 
Department's necessary shift from focusing mainly on the 
foreign threats that have dominated the Department's origins, 
or since the Department's origins, it has been 18 years since 
Congress passed legislation to establish this massive agency, 
and so much has certainly changed since then.
    Our country faces persistent threats, both longstanding and 
new, including foreign and domestic terrorism, election 
security, natural disasters, cyber attacks, and now a pandemic. 
It is this Committee's responsibility to ensure that any 
nominee to lead this colossal Department has the experience, 
temperament, and leadership to address these threats head-on to 
protect the American people.
    Before I wrap up my remarks I want to take a moment to 
acknowledge the severe toll that the pandemic has taken on the 
Department of Homeland Security. Hundreds of frontline 
personnel have been infected while working every day to keep us 
safe. We have also tragically lost six Transportation Security 
Administration (TSA) officials to the pandemic. Our hearts go 
out to all of those who have suffered because of this terrible 
disease.
    I would also like to recognize a Border Patrol agent who is 
fighting for his life now, after being attacked in Arizona 
while on duty Monday night. I wish him a speedy recovery, and I 
thank him and his fellow Border Patrol agents for the work that 
they do each and every day to keep us safe.
    Again, Mr. Wolf, thank you for your willingness to serve 
and for being here today to answer our questions. I look 
forward to having a thorough discussion about the many pressing 
issues that face the Department and our country, so welcome.
    Mr. Chairman, I would also like to ask unanimous consent 
(UC) to enter a letter received yesterday from House Homeland 
Security Committee Chairman Bennie Thompson,\3\ outlining his 
concerns with Acting Secretary Wolf's lack of compliance with 
requests for information.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appear in the Appendix 
on page 298.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Peters. Thank you.
    Chairman Johnson. Thank you, Senator Peters. Now it is our 
pleasure to have Senator Ted Cruz, who is going to introduce 
Mr. Wolf. Senator Cruz.

            OPENING STATEMENT OF SENATOR TED CRUZ\2\

    Senator Cruz. Thank you, Mr. Chairman. Thank you to the 
Committee for welcoming me here. I have to say, Mr. Chairman, 
as you self-isolate from home this may actually be an historic 
moment in that this may be the first Senate committee hearing 
ever with a pool table in the background, as I can see you have 
a lovely pool table in your living room. I will say, at this 
time of deep and contentious division, perhaps if the Senate 
gathered around the pool table with a beer we might be able to 
get more done than sitting in hearing rooms yelling at each 
other. But that may not be happening today.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Cruz appear in the Appendix 
on page 41.
---------------------------------------------------------------------------
    With that it is a real pleasure to introduce Chad Wolf, who 
is a fellow Texan and a dedicated public servant. He is an 
individual that I believe is eminently qualified to be the next 
Secretary of Homeland Security.
    Chad was born in Jackson, Mississippi, but he very quickly 
made his way to the great State of Texas, and he grew up in 
Plano, Texas. He earned a degree in American history from 
Southern Methodist University and began his career working for 
not one but two Texas Senators, Phil Gramm and my predecessor, 
Kay Bailey Hutchison.
    Chad left the Hill after the September 11 attacks to serve 
our country and to protect us from terrorist threats, going to 
work at the newly created Transportation Security 
Administration in 2002. He became an early leader at the TSA, 
finishing out his first run of service there in 2005 as 
Assistant Administrator for Transportation Security Policy.
    After over a decade in the private sector, Chad returned to 
the TSA as Chief of Staff in 2017, before becoming Deputy Chief 
of Staff and eventually Chief of Staff at the full Department 
of Homeland Security. He has been Acting Secretary of Homeland 
Security since November 2019, and in that role he has shown 
strong leadership. That leadership, I believe, has been tested, 
in particular, by the protests that became riots and the 
violence that we have seen across the country. Nowhere was that 
violence, were those riots worse than in Portland, Oregon, 
where night after night thousands of angry protesters 
physically assaulted Federal law enforcement officers (FLEO), 
attacked the Federal courthouse, threw fire bombs, attempted to 
wreak havoc.
    Mr. Wolf took his responsibility to protect Federal 
facilities and to protect Federal personnel with the gravest 
seriousness. He did so at a time when political divisions in 
this country made it much more difficult to do so. He did so at 
a time when the mayor of Portland and the Governor of Oregon 
both told him to, in no uncertain terms, get the hell out.
    Mr. Wolf was not cowed by political pressure. He was not 
cowed by the partisan anger of the moment. He was not willing 
to abandon a Federal courthouse which was still hearing cases, 
was still in operation. He was not willing simply to hand the 
courthouse over to the mob and allow them to burn the 
courthouse to the ground, nor was he willing to abandon the men 
and women who he has been entrusted to lead.
    Federal law enforcement officers faced hundreds of violent 
physical attacks in Portland, having rocks thrown at them, 
water bottles thrown at them, having industrial-grade lasers 
fired in their eyes, resulting in numerous serious eye 
injuries. Having commercial fireworks thrown at them. Having 
fire bombs thrown at them. Protesters armed with guns, with 
knives, night after night after night attacking Federal law 
enforcement officers in a profoundly politicized context.
    I will tell you, I have been impressed by Acting Secretary 
Wolf's steadfast commitment to do his job, to follow the law, 
to protect the Federal facilities he was charged to protect, 
and to stand with the men and women, the law enforcement 
officers who were risking their lives to do their job. I 
believe that record, in addition to his long history and 
experience, qualifies him well to be confirmed as Secretary of 
Homeland Security, and I am proud to introduce a fellow Texan.
    Chairman Johnson. Thank you, Senator Cruz, for that 
introduction and your really powerful opening statement.
    It is the tradition of this Committee to swear witnesses 
in, so Acting Secretary Wolf, if you will stand and raise your 
right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Wolf. I do.
    Chairman Johnson. Thank you. Please be seated.
    The Honorable Chad Wolf is the Acting Secretary of the 
Department of Homeland Security. Mr. Wolf was appointed to the 
Acting Secretary position following his confirmation as Under 
Secretary for the Office of Strategy, Policy, and Plans in 
November 2019. While serving as the senior official overseeing 
the Department's policymaking process, Mr. Wolf led the 
development and coordination of strategies and policies to 
advance the Department's homeland security mission.
    Mr. Wolf previously held numerous senior leadership roles 
in the Department, including serving as the Chief of Staff for 
the Department. Prior to joining the administration, Mr. Wolf 
served as Vice President and Senior Director at Wexler & 
Walker, a bipartisan public policy consulting firm. Mr. Wolf.

  TESTIMONY OF THE HONORABLE CHAD F. WOLF\1\ TO BE SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wolf. Good morning Chairman Johnson and Ranking Member 
Peters and other distinguished Members of the Committee. It is 
certainly an honor to appear before you today as the 
President's nominee to be the Secretary of Homeland Security. I 
am grateful to the President for the faith and trust that he 
has placed in me to serve the tremendous men and women of the 
Department, whose mission is now more important and more 
critical to the safety and security of the homeland than ever 
before.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wolf appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    Again, I would like to thank Senator Cruz for being here 
today to introduce me and for his kind words, but more 
importantly for his continued support for the Department and 
our mission.
    As each of you personally understand, service to one's 
country means dedication, hard work, and commitment. That 
dedication often means less personal time with family and loved 
ones, which is a sacrifice felt by all of us in public service. 
For many years, my family has made tremendous sacrifices so 
that I could serve our Nation. I would like to take this time 
to recognize them for their ongoing encouragement, patience, 
and support as I continue my journey at the Department.
    Please allow me to introduce my wife of 16 years, Hope. She 
is my rock and without her I would not be here today. I would 
also like to acknowledge our two children, Tucker and Preston, 
who keep me grounded and focused on the important things in 
life like Little League. Without their support, I would not be 
here today.
    I would like to recognize my parents, Jim and Cinda, who 
are unable to travel to D.C. today, but who are proudly 
watching these proceedings in real time. From an early age they 
instilled in me a sense of service and commitment and they have 
been immensely supportive of my desire to pursue public service 
throughout my career.
    I would also like to thank the Members of this committee 
and their staffs for the important work that you do each day. I 
have had the privilege to meet many of you throughout the past 
several years, and if confirmed I look forward to the 
opportunity of continuing to work closely together to advance 
the mission of the Department.
    Finally, I would like to thank the DHS workforce for what 
they do every day keeping the homeland safe and secure. Most 
Americans do not understand the sacrifices they make, the 
unfair criticism that they endure, and the complexities of 
their job. But from one employee to another I say thank you for 
your service.
    Like many Americans, my personal call to service began on 
September 11th, when I was congressional staffer here on 
Capitol Hill. At that time, I had no idea that the events of 
that morning would forever shape my future as well as the 
future of our Nation.
    Heeding the call to service, I joined, again, as Senator 
Cruz indicated, the Transportation Security Administration, the 
very agency tasked with securing our airways and for ensuring 
that another event like 9/11 never happened again. I was proud 
to serve at TSA during its inception as well as its integration 
into the larger Department.
    Over the past several years, I have held several positions 
at DHS, including, among others, as the Department's Chief of 
Staff, Assistant Secretary, and Under Secretary position, as 
well as the current Acting Secretary position.
    Over the past 10 months, while serving as the Acting 
Secretary, our nation and the Department has experienced some 
of the most difficult challenges of our lifetime, but I could 
not be prouder of the accomplishments we have achieved. We have 
faced a global pandemic head-on and led the Federal 
Government's unprecedented response efforts to include the 
coordinated distribution of billions of items of life-saving 
PPE.
    We have aggressively pushed back against malign foreign 
actors and nation-states who have sought to interfere in our 
elections, and we have worked together with all 50 States and 
territories to protect our election infrastructure. We have 
been tireless in our efforts because we believe that free and 
fair elections are the foundation of our democracy.
    We have taken extraordinary measures to protect the 
American people from a broad array of threats, to include 
homegrown violent extremists (HVE), domestic violent 
extremists, human traffickers, transnational organized crime 
(TOC), illegal narcotics, COVID-19 fraud, and more.
    We have stood firm against civil unrest and violence, much 
of which had been directed toward our nation's Federal 
properties and law enforcement officers themselves. The 
Department has surged resources as needed, provided mutual aid 
to State and local partners as appropriate, and has done so 
with the respect and professionalism I have come to expect from 
the dedicated men and women of DHS law enforcement.
    Finally, we are supporting our State and local partners as 
they continue to combat historic wildfires and prepare and 
recover from numerous hurricanes.
    Against each of these challenges, the Department has 
marshaled our assets, exercised our authorities, and unified 
our efforts to safeguard the American people and our way of 
life. But despite the challenges of today, our eyes are 
remaining firmly on the horizon. As the strategies of our 
enemies evolve, DHS will adapt at every turn to defeat those 
who seek to do our nation harm.
    As the men and women of DHS can attest, our mission is 
anything but simple or easy. It is one that is increasingly 
complex and expansive, one that transcends borders, mission 
sets, and threat streams. Answering the call, often in the most 
arduous of environments and difficult of circumstances, has 
been my sole focus since day one.
    It has been the greatest honor of my life to serve 
alongside the 240,000 men and women of the Department, and if I 
am fortunate enough to be confirmed, I look forward to 
continuing our progress to secure and protect the lives of all 
Americans. Thank you.
    Chairman Johnson. Thank you, Acting Secretary Wolf, and 
again, thank you for your service. I also want to express my 
sincere gratitude to your wife and your children. I am sure 
they do not see you a whole lot, particularly not since you 
started serving this role. Thank you very much.
    There are three questions the Committee asks of every 
nominee, for the record, so let me ask you to respond to each 
one.
    No. 1, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Wolf. No.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Wolf. No.
    Chairman Johnson. Do you agree, without reservation, to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Wolf. Yes.
    Chairman Johnson. Frequently I will reserve my time and 
pass the questioning, but maybe it is because I have been the 
target of a number of false allegations here over the last few 
weeks and months, I know you are having to endure many charges 
as well. I am going to basically give you my time to address 
four current attacks against you or your office. I will list 
them and then you can respond to each of the four.
    First, if you would respond to the allegations about the 
order of succession issue, if you could respond to some charges 
about events occurring at an U.S. Immigration and Customs 
Enforcement (ICE) detention facility, if you could respond to a 
whistleblower complaint from Brian Murphy, the former Acting 
Under Secretary for Intelligence and Analysis (I&A), and then 
just today a brand new charge about contracts that were let out 
by DHS to your wife's firm.
    If you can just take your time, take as much time as you 
want, and just address these for the Committee, please.
    Mr. Wolf. Thank you, Chairman. I will take those in order. 
We are certainly aware of the Government Accountability Office 
(GAO's) opinion regarding the order of succession at the 
Department. I will say that we very strongly disagree with that 
opinion. I will continue to say I respect the role that GAO 
plays, but that, again, does not dismiss the fact that we 
believe they have a faulty decision, and the legal logic that 
they used is very inaccurate.
    We will continue to talk about that. That is a nonbinding 
decision that the GAO has made. Again, we will continue to 
state our position. We have stated it pretty emphatically, 
about that, and so we will continue to operate as we have, 
using our existing authorities, using our authorities under the 
Homeland Security Act (HSA) to designate successors. The 
Department has unique authority to do that. We did that, in 
this case, not under the Vacancy Reform Act but under the HSA, 
which, again, GAO did not comment on. That is the first one.
    The ICE whistleblower complain, let me just say at the 
outside whether it is the ICE whistleblower complaint or any 
whistleblower complaint, we take whistleblowers very seriously. 
They have certain right, and we are going to certainly make 
sure that those investigations by the Office of Inspector 
General (OIG) are played out, and we will be fully cooperative 
with that.
    Regarding the ICE whistleblower complaint, it is my 
understanding that the OIG has individuals on the ground in 
that facility in Georgia. They will be talking with those 
individuals today and tomorrow. I look forward to that 
investigation. Some of what we have seen thus far on some of 
the most, I would say, dramatic allegations in that complaint 
regarding certain medical procedures, some of the facts on the 
ground and the facts that we have seen do not back up those 
allegations. But again, I am going to let the OIG process play 
out.
    But if there is a kernel of truth to any of that, you can 
guarantee that I will hold those accountable and will take very 
decisive action. But at this point they are allegations and we 
need to make sure that we fully investigate them so that all 
sides have a chance to be heard.
    Regarding the intelligence and analysis whistleblower 
complaint from Mr. Murphy, it is patently false. It is a 
fabrication, completely. I reject any claim that I attempted to 
influence or retaliate against any individual at DHS, but 
specifically Mr. Murphy. I removed or reassigned Mr. Murphy at 
the beginning of August for a very specific reason, that I 
issued a statement on it, I talked about it in the media. It 
was very clear.
    Because I had received credible allegations that he abused 
his position, he abused his authority, and possibly violated 
numerous legal requirements when he personally directed the 
collection of information on U.S. journalists. I have referred 
that to the OIG. There is an OIG investigation. I told him at 
the time that I needed to reassign him to ensure that that 
process, that investigation could go on through I&A without any 
appearance of influence by him leading that organization. 
Obviously he disagreed with that, and we see what is occurring 
at the time.
    For me it was a bright line. If there was even any 
indication that information was being collected on journalists 
I had to take that action before any type of investigation was 
completed. I will continue to talk about everything that I have 
done with I&A, the conversations I have had with Mr. Murphy. I 
am happy to go in further on that as well.
    Mr. Wolf. Then, of course, just recently, I think 
overnight, there was a news story about some contract that DHS 
awarded to my wife's firm. I guess it was in 2018. I just found 
out about it last night, when the media inquiry came in. 
Whether I was Chief of Staff, whether I was the Acting 
Secretary, the Under Secretary, or any other position at the 
Department, I have no role in procurements. I do not even see 
procurements until they are released, until they are in the 
news and on the street. If I was involved in procurements, 
which I am not, I have recusals in place to not only include 
her firm but also clients that I had before arriving at the 
Department.
    So again, fabricated story. There is obviously no evidence 
of anything, but that is not going to stop folks.
    I appreciate the opportunity to address each of those, 
Chairman.
    Chairman Johnson. Thank you, Acting Secretary Wolf. Senator 
Peters, I will reserve the balance of my time. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman. Mr. Wolf, as we 
learned from the faulty intelligence related to the search for 
weapons of mass destruction (WMDs) in Iraq following 9/11, 
using intelligence to confirm preconceived beliefs or biases 
can clearly have some devastating consequences. Trust in 
institutions is especially essential when you are dealing with 
national security issues. It takes years to cultivate trust and 
only one error of judgment for all of that trust to go away.
    Mr. Wolf, my question is, would you agree that accurate 
intelligence reports are absolutely crucial for law enforcement 
and other stakeholders to effectively address and counter 
threats to our nation?
    Mr. Wolf. Yes.
    Senator Peters. Is it true that in July you personally 
withheld from release an intelligence bulleting calling out a 
Russian attack on Vice President Biden's mental health?
    Mr. Wolf. No.
    Senator Peters. You did not withhold it?
    Mr. Wolf. I did not withhold it. I asked for the product to 
be improved, which they did over a period of time, and then 
that product was released at the beginning of September.
    Senator Peters. It was held for a time. In fact, how long 
was it withheld before the product was improved?
    Mr. Wolf. I saw that product at the beginning of July. I 
outlined my concerns, not with the underlying intelligence. The 
intelligence I agreed with. The intelligence has been backed up 
from the intelligence community (IC) and others. It was the 
quality of the product itself that was lacking. Again, any 
product that comes out of the Department I am very specific on 
making sure that that is a professional document.
    When I brought this to the attention of career officials at 
I&A they agreed with me. They had not seen that product before 
it was about to go out. They agreed that it could be improved. 
I asked them to improve that, and then it came back as a better 
document, at the beginning of September. Underlying 
intelligence remained the same. It was better sourced, better 
put in context for our State and local partners, and then it 
was issued, I believe, on September 4th.
    It took a couple of months for it to--you looked at it for 
it to basically come out. Does it normally take about close to 
2 months for you to bring a two-page intelligence report up to 
the quality standards that you think are necessary? Does it 
really require that much time?
    Mr. Wolf. No, it does not. Again, I had sent it back to 
I&A, and relied on them to improve the product. At that time we 
did have a leadership change at the beginning of August. This 
is back to my earlier comments about Mr. Murphy being 
reassigned. There was a leadership change. We had new acting 
leadership that has come into that office that was reviewing 
that office and reviewing a number of their reports. It was 
part of that process----
    Senator Peters. But you are saying it does not normally 
take 2 months for a normal two-page report to go through, or 
does it take 2 months for it to go through? You are saying that 
doesn't----
    Mr. Wolf. I cannot comment on how long it takes I&A to 
produce each of their documents. What I asked them to do was 
improve upon that product. It went from essentially a page and 
a half to about 3\1/2\ page, and it was again, better context 
and a better product at the end of the day. But I think the 
important part is the underlying intelligence did not change. I 
did not direct them to change it.
    I was focused on the quality of the product itself.
    Senator Peters. I understand that, Mr. Wolf. It just seems 
to be a real long time to do that kind of change, and it is 
curious that the report was only issued after news broke about 
it. So here we go. A couple-page report does not get out. News 
breaks that there is an issue, and then suddenly it comes 
forward.
    My understanding is that there have been a number of 
potentially problematic products coming from I&A. You and I 
have spoken about that in the past. But is it possible that 
your staff chose to elevate this particular report to you--
because there are a lot of reports that come out--is it 
possible that your staff elevated this report, that you 
withheld from release for some time, because it was about the 
President's opponent?
    Mr. Wolf. No.
    Senator Peters. Not possible. How many intelligence reports 
have you reviewed and put a hold on?
    Mr. Wolf. I have reviewed--again, they do not come to me 
for approval. We make sure of that. I want to see those as they 
are released to our State and local partners, and I have 
probably reviewed a half a dozen to a dozen of I&A's products, 
again, as they are going out the door, to make sure that I 
understand what they are, make sure they are up to my 
standards. Then as we have talked, this one has not. I asked 
them to look at a number of those reports, this one 
specifically, to improve on the product. Again, not the 
underlying intelligence but the product itself.
    Senator Peters. But still, it sounds like a relatively 
small number coming to your attention. Will you commit to 
sharing those held reports, including pre-released drafts that 
you reviewed with the Committee?
    Mr. Wolf. Previously released drafts of----
    Senator Peters. Of the other reports that you said you have 
reviewed.
    Mr. Wolf. I can go back and see which ones that they have 
sent up.
    Senator Peters. So you will provide those to the Committee 
that we can take a look at?
    Mr. Wolf. Sure.
    Senator Peters. I appreciate it.
    To your knowledge, has Mr. Cuccinelli ever directed or 
encouraged staff at the Department to withhold, issue, or alter 
intelligence reports to align with the White House's messaging 
and rhetoric?
    Mr. Wolf. No.
    Senator Peters. Mr. Wolf, I sent you a letter last week 
asking that you and any staff named in Mr. Murphy's 
whistleblower complaint, as well as other staff with knowledge 
or involvement in the activities cited in the report meet with 
Committee staff for a transcribed interview. As of today you 
have not responded to that request.
    Can I get your commitment that you and your staff will make 
yourselves available for interviews as part of the 
investigation into these allegations of political interference 
within DHS intelligence reporting?
    Mr. Wolf. What I want to say is that we are currently doing 
that for various committees at the moment, so we have----
    Senator Peters. I appreciate that, but----
    Mr. Wolf [continuing]. House Intelligence, we are beginning 
transcribed interviews. Senate Intelligence Committee has also 
expressed an interest, although they have not asked for 
transcribed interviews. We are going through a process. I 
believe three individuals have been transcribed, have sat for 
transcribed interviews in the House thus far. We received your 
letter last Friday so I think we are on the third or fourth 
business day. We will respond to that. I look forward, again, 
to working with the Committee as a whole to make sure that you 
have the information that you need to do your oversight 
responsibilities.
    Senator Peters. As you said, I appreciate you working with 
other committees. This Committee has primary oversight, 
particularly when it comes to your fitness to serve as 
Secretary of Homeland Security. This is very relevant 
information and I would expect that you would be willing to do 
that, and I have today your commitment that they will be made 
available to us.
    Mr. Wolf. Again, I am happy to work with the Committee as a 
whole to make sure that you have all the information to do your 
oversight responsibilities.
    I also want to indicate there also is an Office of 
Inspector General investigation into this as well, so we need 
to make sure that we are also providing information to them at 
the same time. We have multiple levels of review in this 
whistleblower complaint.
    Senator Peters. I am running out of time here, but an 
important issue you and I have spoken about a lot, and I wanted 
to spend a little time getting some direct answers from you 
relating to work toward dealing with white supremacist violence 
and activities. I showed the chart that was here earlier.
    Can you confirm that the Department assesses white 
supremacist violence to be the most deadly threat now facing 
our nation today?
    Mr. Wolf. I think when you talk about domestic terrorism--
so I want to be clear on that front. When you talk about 
domestic terrorism, when we talk about home-grown violent 
extremists, which are folks that are inspired, motivated, or 
directed by foreign terrorist organizations, and then we talk 
about domestic violent extremists. Within that category are 
racially and ethnically motivated individuals, and certainly 
white supremacist extremists, from a lethality standpoint over 
the last 2 years, particularly when you look at 2018 and 2019, 
are certainly the most persistent and lethal threat when we 
talk about domestic violent extremists.
    But I think your question was all of the threats facing the 
homeland, I do not think I would agree that, out of all the 
threats facing the homeland, from nation-state threats to 
pandemics to hurricanes and the like, that is the most----
    Senator Peters. Yes, and that was my intent, that you 
answered, is dealing with those terrorist attacks. That was the 
intent of the question.
    Mr. Wolf. I do want to say that it is important as we talk 
about domestic violent extremists, and we talk about 
historically, 2018, 2019, we cannot ignore what has been 
occurring over the past 4 months, when we talk about anti-
government extremists, anarchist extremists, anti-law 
enforcement folks. It is very important that we continue to 
look at and address the threat that has been occurring in the 
country over the last 4 months.
    Senator Peters. I agree, and just one quick question here. 
I know the Department finally released your public action to 
implement strategic framework for countering terrorism and 
targeted violence. A long time coming. It is out now. But 
specifically, what actual steps has the Department taken, in 
addition to this report, what action steps has the Department 
taken to reduce the threat communities face from white 
supremacist actors? I know there are some grant programs out 
there. Please do not talk about the grant programs. What 
specific actions has the Department taken, given the fact, as 
you just mentioned, given the threat posed by white supremacist 
groups?
    Mr. Wolf. Understanding you do not want to talk about the 
grant programs but that is a big part of what we do, at least 
in the prevention space.
    Senator Peters. Yes, and I am granting that. I am giving 
you that. I want to know what else.
    Mr. Wolf. We also do community awareness briefings and we 
do other types of briefings that our Office of Technology 
Development and Deployment Program (TDDP) does as well, in 
conjunction with the Office for Civil Rights and Civil 
Liberties (CRCL) and others. So part of our mission is to make 
sure that we are educating folks. We are sharing information. 
We are also pushing out, probably I believe since April I&A has 
pushed out roughly 20 or so products regarding white supremist 
extremism to our State and local law enforcement officers. So 
those are two of our fusion centers. We are pushing 
intelligence out, but then we are also providing those 
community awareness briefings and the like, and a big part of 
that are the resources that we put behind that, which are the 
grant programs themselves.
    Senator Peters. I appreciate it. Thank you. My time is up.
    Chairman Johnson. Thank you, Senator Peters. As long as you 
brought up the issue of domestic terror threats and white 
supremacists, I will reclaim a couple minutes of my time. 
Acting Secretary Wolf, you seem to make the distinction between 
what has happened over the last couple of years as it relates 
to the violent extremism and what has transpired over the last 
4 months. Over the weekend I saw pretty interesting videos, a 
press conference put on by the chief of police in Chicago that 
showed what happened in Grant's Park, where peaceful protestors 
took a left-hand turn, went into a park, were either shielding 
the people that then started throwing frozen water bottles and 
industrial type of fireworks and that type of thing at the 
Chicago police officers.
    When you were before our Committee a couple of weeks ago I 
asked, what is your assessment in terms of who is really 
fomenting the peaceful protests that then end up in transition 
into riots? Senator Peters seems to try and link those and 
conflate it is the white supremacist groups. I do not think 
that is the case. But what do you say in terms of--what is the 
main thrust? Who are the main groups? What is the main ideology 
behind what we have seen in the last 4 months where a peaceful 
protest turned into pretty destructive riots? I do not know the 
exact count of how many businesses were burned in Kenosha, 
Wisconsin, but, the city shut down. It has been devastating for 
the downtown. Can you just comment on who is fomenting that 
violence over the last 4 months?
    Mr. Wolf. Sure, absolutely, Chairman. What I will say at 
the onset is the Department is focused on countering any forms 
of violent extremists. So let me just say that from the outset. 
When we produced the framework that the Ranking Member 
mentioned back in September 2019, we specifically pointed to 
two threats when we talk about domestic terrorism, domestic 
violent extremists. Specifically, we talk about white 
supremacist extremists, but we have also talked about 
anarchistic extremists. We specifically mentioned again, back 
in September 2019, Antifa and concerns that the Department was 
seeing at that point.
    This is not anything that the Department has come to in the 
last 4 months. The last 4 months have certainly highlighted 
what we have seen specifically in Portland. I will talk very 
specifically about Portland, which I have in this room and 
before this Committee again, where we had over a 60-day period 
law enforcement officers, specifically targeted, a courthouse 
specifically targeted, a seat of justice in downtown Portland, 
specifically tried to be burned down. The intel that we 
received out of Portland, that we received elsewhere across the 
country as well, has this anarchist sort of ideology.
    But I want to be clear, and I believe Director Ray has made 
it clear from the Federal Bureau of Investigation (FBI), is we 
do not look at specific groups. We are looking at the 
criminality coming out of the activities of groups. We are 
looking at the criminal activity, and of course the FBI is the 
lead investigator of any type of criminal activity that is 
coming out.
    What we saw in Portland was night after night after night 
criminal activity occurring at that courthouse against law 
enforcement officers and against that courthouse, which is 
protected by DHS. So specifically in Portland we saw 3, 4 
months of activity being organized. It was coordinated. It was 
not spontaneous every night. That is what we saw very 
firsthand. We have seen that in other communities around the 
country as well.
    Chairman Johnson. Thank you, Acting Secretary Wolf. Let me 
just give the Members the order of questioning. Senator 
Portman, then Hassan, then Lankford, then Rosen, then Scott, 
then Romney. Senator Portman, are you available?

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. I am, Mr. Chairman. Thank you very much 
for holding the hearing, and Secretary Wolf, as you and I 
talked about in our conversation recently, I appreciate your 
service. This is a tough time for our country in many respects. 
COVID-19, the demonstrations and rioting that we have seen. You 
are in the middle of it. Our condolences from this entire 
committee go to the family and to the colleagues of Dave 
Underwood, a Federal Protective Service officer who was killed 
outside the Oakland courthouse in California.
    You have lost a couple of officers recently to COVID-19 
contracted on duty, Marco Gonzalez and Lucas Saucedo, and we 
think of them too, and then recently another officer injured 
along the border.
    These men and women are doing the work for all of us, who 
make our country safer and more secure. Your people are also 
responding to the wildfires in California and throughout the 
West, and then also obviously the recent hurricane.
    So you are in the middle of a lot, and I think it is really 
important that we have confirmed leadership at the Department 
right now. For some time, I had been concerned about the lack 
of leadership positions being filled, not just at the top, but 
through the ranks. I know the Chairman shares that concern as 
does the Ranking Member and we have been working on it. But we 
need a confirmed Secretary. Some had said to me, well, we are 
at the end of the first term of the President. Why are we 
focused on this? We are focused on it because we believe that 
the men and women of the Department deserve to have that kind 
of certainty and accountable leadership.
    I am delighted we are having the hearing today. I want to 
get you confirmed as quickly as possible. I also think it helps 
to head off some of these court battles that we talked about 
earlier, which are obviously a huge distraction for the agency 
at a critical time.
    In our conversation we talked about the whistleblower 
complaints. You have addressed those again today. I appreciate 
the fact that you are taking those complaints seriously, and 
that you are asking the Inspector General (IG) to complete the 
investigation independently and thoroughly. I think that is 
appropriate, and I do not want to belabor that issue because 
again, it seems like not only in private have you talked to me 
about this, but in public testimony this morning, you have made 
a personal commitment to that.
    You have also made a commitment to make sure our elections 
are safe, and that is really important. We have already started 
voting in some States. We start soon in Ohio. We need to be 
sure there is a unified and streamlined Federal effort to help 
our States and our local efforts to secure our elections.
    Let me give you a second to expand a little on that. You 
mentioned it in your testimony, but can you talk about 
specifically what DHS has done in this regard?
    Mr. Wolf. Absolutely. Again, at DHS, when we talk about 
election security, we are focused on cyber threats to election 
systems and election infrastructure. Over the past 3\1/2\ to 4 
years, we have been working with all 50 secretaries of States, 
thousands of local jurisdictions, technology vendors, and the 
like, making sure that our election here in November is going 
to be the securest election that we have had to date.
    Obviously we saw the concerns in 2016. We continued to work 
throughout 2018 and the midterms. We saw 2018 elections is 
probably some of the securest elections that we have held to 
date, and we continue to build on that work as we go into 2020. 
So very proud of the work that CISA has been doing on election 
security.
    We know in this election cycle, the IC has said that they 
have not attributed any cyber campaign against any election 
infrastructure from a nation-state adversary. I think that 
speaks to the type of work that we have done over the past 3\1/
2\ to 4 years, because at this time, going all the way back to 
2016, there were indicators and warnings that they were 
targeting our election infrastructure. We do not see that today 
as I sit here today, and I think that is because of all of the 
work that not only CISA has done, but the entire interagency 
has done, as well as the work the administration has done, is 
calling out individuals that we have identified that are trying 
to----
    Senator Portman. Secretary Wolf, can you address briefly 
the recent report that came out, I think it was from Microsoft, 
about various countries trying to interfere in the election. 
They mentioned, as I recall, Russia, China, Iran. Can you 
address that?
    Mr. Wolf. Absolutely. When we talk about nation-state 
threats to our election systems, we talk about three, 
specifically. We talk about Russia, we talk about China, and we 
talk about Iran. They all come about this differently, but all 
three are a threat. I have been very consistent about that. The 
intelligence assessment put out by the Director of National 
Intelligence (DNI) in early August was very consistent about 
that. Again, the Microsoft report, Senator, that you mentioned, 
also talks about all three of those nation-states being a 
threat.
    I know that there continues to be a lot of focus on Russia 
as there should be, but you cannot do that at the exclusion of 
making sure that we continue to address the threats that are 
from both China and Iran.
    Senator Portman. What the Microsoft report says is not 
inconsistent with what you are saying in terms of 
infrastructure not being under attack?
    Mr. Wolf. That is correct. They are not focused, or we do 
not have any specific intelligence that they are focusing on 
election infrastructure. That is not to say they cannot or will 
not. But as I sit here today they are not focused on election 
infrastructure. They are looking at those influence campaigns 
that we see them----
    Senator Portman. Let me change subjects if I could, and I 
am going to ask you about something we did not talk about in 
our private conversation, and that has to do with your Disaster 
Relief Fund (DRF).
    Since the $600 Federal supplement on unemployment insurance 
ended, many people have not been able to have access, 
therefore, to unemployment insurance, who lost a job through no 
fault of their own. The President and his administration 
stepped in. You stepped in and provided help at $300 Federal 
supplement on top of the State supplement, per month. That has 
been a 6-week program. It actually just ended last week.
    But you took the funding out of the Disaster Relief Fund to 
be able to do that. I personally believe that that $300 
extension is good idea. I think it should be done until the end 
of the year. I think that is about the right amount. There is 
no magic number, but that is not disruptive to the labor market 
as the $600 was.
    However, my understanding is that the Disaster Relief Fund 
has now reached its cap. In other words, you set a number that 
was based on some analysis that left enough money in the 
Disaster Relief Fund to respond to true and actual disasters.
    Two things have happened. One is we have had a lot more 
natural disasters, even in the last couple of months. Certainly 
the hurricanes and the wildfires are at the top of that list. 
So more demand for the assets in the fund. Second is, we have, 
as I understand it, depleted the entire amount that was set 
aside for the unemployment insurance. I have a legislative 
proposal, in fact, offered as an amendment to the CR and we 
will see what happens, but to try to replenish that fund. 
Unfortunately is not fully replenished in the CR.
    Can you talk about that for a moment? Again, it is not 
something I raised before with you, and I do not expect you to 
have all the details. But my understanding is the fund--there 
is $24.7 billion left in it, and that that is not enough to 
handle the natural disaster challenges we face plus being able 
to try to extend this $300 Federal supplement program. Can you 
talk about that?
    Mr. Wolf. Yes, Senator. As of today, FEMA has obligated 
around $49.5 billion in DRF funding to support COVID-19 relief 
efforts. And that includes about $39.6 billion in supportive 
lost wages, Senator, which you certainly articulated. Obviously 
the DRF is also used to respond to a disaster. Hurricanes Laura 
and Marco, about $581 million, Hurricane Sally is $2.4 million 
thus far, and we will see again how that continues to roll out.
    Our balance in the DRF is a little north of $25 billion, so 
there is still funding inside our Disaster Relief Fund to 
continue to address, as you know, hurricane season goes all the 
way through November, as well as to address the wildfires out 
in the West. We do have funding as of today in the DRF to 
continue to support--that FEMA has to continue to support 
efforts around the country.
    Senator Portman. Right. My time has expired. Just one quick 
answer--do we have enough or not?
    Mr. Wolf. We do not have enough as we sit here today. Now 
if we are additional hurricanes, depending on size and category 
of those hurricanes, as well as the wildfires, we may have to 
have continued discussions with Congress and the Office of 
Management and Budget (OMB) about additional funding for the 
DRF.
    Senator Portman. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Portman. Senator 
Hassan?

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
Peters for this confirmation hearing. Thank you, Mr. Wolf, for 
being here for your testimony, for your willingness to serve, 
and for the conversation we had last week. I will join my 
colleagues in offering condolences to your entire workforce for 
the loss of the officers you have all suffered and to their 
families.
    Mr. Wolf, the Islamic State of Iraq and Syria (ISIS) and 
affiliated forces are gaining strength worldwide, launching 
more than 100 attacks in Iraq last month, seizing more land in 
Afghanistan, and increasing threats on the African continent. 
This potential resurgence of ISIS in the Middle East, Africa, 
and Afghanistan is alarming, and we obviously cannot ignore it. 
What steps has DHS taken to strengthen its counterterrorism 
capabilities in the event that ISIS continues to grow in these 
regions and pursues external operations against the United 
States?
    Mr. Wolf. Our counterterrorism portfolio is sort of the 
core capability of what the Department has done over its 
tenure. We have a layered approach when we talk about 
counterterrorism policies and procedures that we put in place, 
from keeping individuals out of the country to identifying 
individuals as they come into the country and then to make sure 
that we are removing individuals as we see fit. We do that with 
a number of policies. We do that with in close coordination 
with our foreign partners, we do that through travel 
restrictions that we have put in place over the years, but 
making sure our screening and vetting programs are really at 
the heart of our counter-terrorism programs. I would say that 
our screening and vetting programs at the Department are 
probably some of the best in the world.
    We share that, we share those partnerships with our allies 
across the world, making sure they have programs like Visa 
Waiver Program (VWP), our automated targeting system global 
(ATSG), our secure real-time platform (SRTP). These are all 
biometric programs that we share with them, so that we are able 
to share information, that we are able to share that real-time, 
again, information, so we know who is transiting certain 
countries and making sure. If we see individuals that are 
returning from the battlefield, perhaps back to the United 
States or back to Europe or other places of the world, that we 
are able to identify them and we are able to work together.
    Senator Hassan. Thank you for that, and I would look 
forward to continuing to work on visa security teams as well, 
appropriately balanced.
    I have heard from many constituents regarding FEMA's recent 
policy statement that personal protective equipment and 
cleaning supplies purchased by schools are not eligible for 
reimbursement through the public assistance program. While 
these items may not typically fall within the program, schools 
have been operating under the impression that they would be 
reimbursable during the pandemic, and have acted accordingly. 
In New Hampshire, the communities of Salem and Londonderry must 
now find another way to pay for $350,000 in COVID related 
expenses.
    There has been a bipartisan outcry, urging FEMA to 
reconsider this position. These are obviously extraordinary 
times and schools need this support to help ensure that 
students, teachers, and their families can be safe if they are 
able to return to the classroom. Will you commit to reversing 
this decision and allowing reimbursement for schools who 
purchase PPE and cleaning supplies?
    Mr. Wolf. Again, I have talked to the FEMA administrator 
about this, and this really has to do with authorities that 
FEMA has versus making sure they use that for emergency 
protective measures versus just sort of your traditional 
operating expenses. What I will say though, is that there is 
funding outside of FEMA to address some of these concerns that 
schools have. We have over 39 different agencies that have over 
$3 trillion in funding from COVID related packages----
    Senator Hassan. I am going to interrupt you for just a 
second, because I know how sparsely those resources have 
already been spread in my State, and there is nothing routine 
about needing personal protective equipment and sanitation 
equipment in schools to combat a pandemic. There is absolutely 
nothing routine about that. I would like you to----
    Mr. Wolf. The Deportment of Health and Human Services (HHS) 
is distributing again about 125 million cloth facemasks in the 
month of September as well.
    Senator Hassan. I appreciate that, but I will also just 
point out that FEMA led schools to believe they would be able 
to get reimbursed. They have therefore deployed the resources 
from other agencies in other ways.
    Let me move on to another question. For months, my staff 
and I have been trying to get updates from the Federal 
Emergency Management Agency regarding--oh, sorry. That was the 
question I just asked you. This happens.
    Let me move on to the last question I have for you. With 
less than 2 months until a Presidential election, the Nation is 
being bombarded with disinformation and propaganda coming from 
Russia. DHS's own intelligence and analysis shop has said this, 
and yesterday report surfaced that President Putin and his top 
aides are probably directing the operation. Based on everything 
you have seen, do you think that the Russians are seeking to 
advance propaganda against Vice President Biden?
    Mr. Wolf. I think on everything that I have seen, that 
there are three nation-states that we have to be very concerned 
about. One is Russia, one is China, and one is Iran, and they 
all have different ways and different motivations of doing 
this. We have seen what the intelligence community assessment 
has said again in early August was that Russia looks to 
denigrate Former Vice President Biden. China prefers Vice 
President Biden, and Iran prefers Vice President Biden. So we 
have to----
    Senator Hassan. But the answer is that that Russia is in 
fact seeking to advance propaganda against Vice President 
Biden. Thank you for reaffirming that.
    Mr. Wolf. All three nation-states are.
    Senator Hassan. Because I do have a little bit more time, 
let me go back to one other issue. We have been trying to get 
updates from the Federal Emergency Management Agency regarding 
its role in the purchasing and distribution of personal 
protective equipment. I understand that many of the tasks 
handled by your Department this spring have now transitioned 
back to HHS and the Department of Defense (DOD). But how 
precisely is the work being shared and what agency is handling 
it remains pretty opaque. Can you tell the Committee in a 
straightforward way what FEMA's current role is in the pandemic 
response?
    Mr. Wolf. Sure. They still continue to coordinate a number 
of activities when we talk about making sure that PPE gets to 
certain places. I talked about earlier about the lost wages 
program that FEMA continues to administer. Again, that is a 
COVID relief type of activity. They continue to coordinate the 
vast majority of activities.
    I will say, as you indicated, certain activities have 
transitioned back to HHS as they are medical in nature. As we 
continue to fight this, happy to get you more information, 
happy to have FEMA come up and brief you on exactly what they 
are doing. This is not a secret. It is very clear and we have 
been very upfront about what their role is.
    Senator Hassan. I appreciate that, but it has been very 
difficult, for instance, to get precise information about 
projections, for instance, on the amount of PPE needed, and 
what tends to happen is people say, HHS is dealing this or FEMA 
is dealing with that. I think it is really imperative that we 
be able to exercise oversight and get precision from you all.
    Mr. Wolf. I agree 100 percent. I have to say, as from March 
all the way probably to present day, FEMA has been overwhelmed 
with the number of letters that they have received, and they 
are processing them as quickly as possible. We are being as 
responsive as humanly possible. As you can imagine, they have a 
deluge of letters from Members of Congress.
    Senator Hassan. Right. I know I am over time, Mr. Chair, so 
I will just close with this. The letters from Congress 
obviously should be responded to, but if you have a structure 
in place and clear communication, clear lines of responsibility 
and constant communication with us, some of those letters might 
not be necessary. Thank you, Mr. Chair.
    Chairman Johnson. Thank you, Senator Hassan. Senator 
Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Chairman, thank you, and Acting Secretary 
Wolf, it is good to see you again. Thanks for being back in 
this room once again. The last time we were here we were 
talking about what was happening in Portland and Federal law 
enforcement that was under assault there by the individuals 
that were rioters that were attacking the Federal courthouse 
and attacking Federal law enforcement. At that time, you had 
said there were about 277, if I remember the number correctly, 
Federal law enforcement that had been injured in those attacks. 
Can you give us an update on those on our Federal personnel and 
the injuries that have been sustained and how they are doing?
    Mr. Wolf. We have had a to date about 349 separate injuries 
to DHS law enforcement officers there in Portland. Many of 
those have recovered, so the bones have healed, broken bones 
have healed, stitches have come out, and the like. We have 
about 125 DHS personnel that have eye injuries of one manner or 
another, from those lasers that were pointed, and we do not 
believe any of them will be permanent. There will be some 
damage, and some of those are still undergoing evaluation to 
see what is the extent of that damage.
    What occurred in Portland in June and July, we are still 
dealing with that today from a law enforcement officer 
perspective. Again, we not only talk about the physical 
injuries, but again, we talk about the doxing of personal 
information that is out there on the Internet of these law 
enforcement officers, and they are having to deal with that 
with their families.
    Some of the attention may not be on Portland today, but I 
can guarantee you, Senator, that our efforts at the Department 
is still continuing to support those law enforcement officers.
    Senator Lankford. Would you tell them thank you from us?
    Mr. Wolf. Yes, sir.
    Senator Lankford. They were asked to do something by our 
nation to be able to protect Federal facilities and they 
stepped up and did it at the cost of their own blood at times. 
Their families have paid an incredible price for them to step 
up and do what is right to be able to protect our country. 
Please do pass on our thank-you to those folks.
    Let me head down South. I have seen some of the numbers and 
the statistics that during the time of the pandemic the cartels 
have altered their methods for trying to be able to move 
illicit drugs into the United States. They have changed 
techniques, they have changed locations, and the quantities 
have gone up significantly during the time of the pandemic. We 
have seen this with people that are in isolation, that have 
struggled with drug abuse in the past. The isolation of the 
pandemic has caused a severe strain for mental health for many 
of those individuals and driven some people back into their 
drug addictions or deeper into drug addiction, and the cartels 
are taking advantage of that.
    What are you seeing on the Southern border now, as far as 
the movement of drugs and how our interdiction process is going 
to be able to protect Americans?
    Mr. Wolf. I think there are a couple of dynamics that are 
going on at the Southwest border, not to obviously include 
COVID. We have talked about a new border wall system going up. 
We have over 320 new miles of that new border wall system, and 
those are in very trafficked areas that we are putting that 
border wall system up. So that is causing cartels and 
transnational criminal organizations (TCOs) to try to find new 
pathways, new avenues into the country.
    At the same time, we have DOD personnel, DOD assets that 
are on the Southwest border. We are moving those to areas where 
we do not have the border wall system. You have more cameras, 
you have more eyes, and you have more agents in areas that have 
been difficult or historically difficult to patrol. That is 
again causing disruption to, again, those cartels and those 
TCOs.
    We are seeing more movement through ports of entry (POEs), 
which is exactly where we want to push this sort of illegal 
contraband. We want to push them to ports of entry, where we 
have people, where we have resources, where we have technology, 
and it is on our terms on how we interdict these folks.
    Now what we are seeing as we put in travel restrictions, 
because of COVID, we are seeing some of their tactics change. 
They are using and recruiting a lot more U.S. citizens today 
than they have historically, because we have cut down on that 
land, the traffic across those land ports of entry. U.S. 
citizens and legal permanent residents can still come freely, 
and so we are seeing much more of that traffic. We are seeing 
more individuals trying to smuggle illegal narcotics in as 
well.
    So we continue to catch more. We continue to deploy more 
technology at our ports of entry, our non-intrusive inspection 
(NII) technology, designed to look inside cars and vehicles as 
well as individuals.
    Senator Lankford. What do you need to continue that work, 
based on the transition and the flow and the effectiveness of 
the border wall and moving people to other areas where we have 
additional cameras and additional inspections? What do you need 
now?
    Mr. Wolf. I would say two things: additional resources for 
personnel, for Customs and Border Protection (CBP) personnel, 
specifically the Office of Field Operations (OFO) personnel, as 
well as border patrol personnel. We have requested that in the 
past, I believe, three to four President's budgets, and that 
has not been approved to date.
    Some of our fees that we normally see, some of our sort of 
normal fees help to increase our personnel, as those fees are 
down because of COVID, less travel, the fees are down, so we 
are not able to hire as many folks that we would like to see. 
We would like to see more individuals at our ports of entry, 
more time looking at cars, vehicles, individuals, as well as 
continued funding. I know Congress has been very supportive of 
that non-intrusive inspection program that we have.
    We are trying to increase our inspections for commercial 
vehicles from a very low percentage, I do not have it offhand, 
upwards to about 70 percent by 2023, and for personal vehicles 
up to about 40 percent in 2023. So continued support and 
funding for that initiative as well, and again, continued 
support for that new border wall system. Again, as we continue 
to put that in places we continue to funnel human traffickers, 
TCOs and others to ports of entry, or at least in areas that we 
prefer to encounter them.
    Senator Lankford. The individuals that are crossing the 
border illegally, do you see some trend changes from 2020 to 
2019? Obviously, COVID has had a pretty dramatic effect on 
that.
    Mr. Wolf. Right.
    Senator Lankford. The Northern Triangle countries have 
closed down their borders there. What are you seeing on the 
border as far as the flow of people?
    Mr. Wolf. We have seen a different flow. In 2019, it was 
mainly unaccompanied alien children (UACs), as well as family 
units from the Northern Triangle. We put a number of policies 
and procedures in place. Today, what we see are mainly single 
adults from Mexico, not exclusively, but that is the highest 
percentage by far. What we have seen, obviously, that sort of 
hearkens back to the 1980s and 1990s of seeing that same trend 
and that same flow. The vast majority almost exclusively are 
coming here for economic reasons.
    Now, the good news is we were able to repatriate them back 
to Mexico pretty quickly, but the different dynamic that we see 
today in 2020 versus 2019, in 2019 folks were coming across the 
border and they were sitting down. They were sitting down 
waiting for Border Patrol to come up, because they knew that 
they would be released within a matter of hours, if not days 
into the interior of the United States, and that was the goal. 
Today, we see they are running from Border Patrol. They are 
trying to get away. So that obviously increases risk on Border 
Patrol injuries and things of that nature.
    So the dynamic has changed, the demographics have changed, 
and we are trying to change with that.
    Senator Lankford. The things that you cover and that you 
have worked on already, both as a Deputy Chief of Staff, Chief 
of Staff, then Acting Director, natural disasters, border 
security, terrorism, cybersecurity, election security, it is a 
pretty remarkable portfolio of the things that you are having 
to be able to manage day to day.
    Thanks to you and your team, the work that you have already 
done. Thanks to your wife and your kids for loaning you out to 
the Nation. I hope you get a chance to catch some Little League 
games with the kids as well while you are also getting a chance 
to be able to serve us. Thanks for doing it.
    Mr. Wolf. Thank you, Senator.
    Chairman Johnson. Thank you, Senator Lankford. Senator 
Rosen?

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you, Mr. Chairman, Ranking Member, for 
holding this hearing. Of course, thank you, Acting Secretary 
Wolf for being here today. Thank you for the conversation we 
were able to have last week before this hearing. I really 
appreciate it.
    I want to go back to your confirmation hearing for Under 
Secretary position that was before this committee on June 12, 
2019. I asked if you were involved in developing the family 
separation policy, and you answered me, ``Unequivocally no, 
ma'am.'' I asked how you became aware of the policy and you 
told me, ``Through discussions with staff, discussions leading 
up to the Attorney General's announcement in April 2018.''
    After that hearing an email exchange became public in 
December 2017. You emailed the Justice Department (DOJ) 
spokesman, attaching a memo with the file name, and I quote, 
``UAC options,'' UAC, of course, meaning unaccompanied 
children. You wrote in the email to the other official that you 
worked with others to pull the memo together and that the 
purpose of the memo was to give then DHS Secretary Nielsen, 
quote, ``An idea of what she can do right away versus actions 
that will take months-plus to implement,'' and I end quote.
    When you open the attached political memo, it is called 
``Policy options to respond to a broader surge of illegal 
immigration,'' and out of 16 policy options, family separation 
is No. 2 on the list.
    Let me ask you this. I asked if you helped develop this 
policy and you told me no. Is that correct?
    Mr. Wolf. That is correct.
    Senator Rosen. You and several others, quote, ``You pulled 
together a memo for the DHS Secretary that discussed the family 
separation policy,'' and this policy was implemented. You know 
children were separated from their parents at the hands of our 
government.
    Let's go back over the cover email. You said the purpose of 
this memo was to give Secretary Nielsen, the DHS Secretary, the 
person whose Chief of Staff that you were, an idea of what she 
could do immediately versus what would take months. Is that 
correct?
    Mr. Wolf. That is correct.
    Senator Rosen. At your confirmation hearing, when I asked 
you if you helped develop the policy, you did not mention this 
memo. Is that also correct?
    Mr. Wolf. I do not believe the memo was discussed at that 
hearing, no.
    Senator Rosen. Thank you. So let's talk about your memo. 
Here is what it says for the No. 2 policy option. Again, I am 
going to quote, ``Announce that DHS is considering separating 
family units, placing adults in adult detention and placing the 
minors in custody of HHS as unaccompanied alien children.'' But 
those children you recommended classifying as UACs were not 
actually unaccompanied, were they, Mr. Wolf?
    Mr. Wolf. I am sorry. Can you repeat your question?
    Senator Rosen. You said you were going to separate--this is 
what you said in your memo, and I am quoting--you considered 
separating family units and treating the children as 
unaccompanied. They were not unaccompanied. They were part of 
family units. That is what you said in your memo. You called 
them unaccompanied, but they were not.
    Mr. Wolf. Again, unaccompanied as a legal terminology. Let 
me just say it was not my memo. You keep referring to it as my 
memo. As I said last year that the Secretary, Secretary 
Nielsen, relied on not only her operators but also her policy, 
her immigration attorneys to develop policy options. Of course, 
they did that----
    Senator Rosen. But you were part of the team, and as her 
Chief of Staff you have direct relationship and responsibility.
    Mr. Wolf. I had direct----
    Senator Rosen. You were part of the series of memos that 
went on deciding to separate children and treat them as 
unaccompanied.
    Mr. Wolf. I had a responsibility to make sure that the 
Secretary was fully staffed. Any time we talk about immigration 
within the Department, I appreciate it may sound simple but it 
is anything but simple in making sure that we pull the U.S. 
Citizenship Immigration Services (USCIS), ICE, CBP, general 
counsel policy office, and any number of other individuals----
    Senator Rosen. I understand, but----
    Mr. Wolf. Inside the Department together----
    Senator Rosen [continuing]. I have a Chief of Staff. Anyone 
who has a chief of staff understands that it a complex job.
    Mr. Wolf. That was not my portfolio. It was not my issue 
set at that time.
    Senator Rosen. Let me ask you this question. You have been 
Acting Secretary for 10 months. Do you now consider it your job 
to speak the truth to power when utterly abhorrent policies 
like this get proposed? Do you support ending family 
separation? Do you stand by that? You testified for that.
    Mr. Wolf. As I testified last year, I testified again this 
year, I support the President's decision when he issued an 
Executive Order (EO) to stop that practice as the Department 
did, and we executed that Executive Order, I believe, in June 
2018.
    Senator Rosen. Thank you. I would like to talk about the 
ending of temporary protected status (TPS) quickly.
    Mr. Wolf. Yes.
    Senator Rosen. Nevada is home to more than 4,000 TPS 
holders and their families. Seventeen hundred of those are 
essential, critical infrastructure workers, meaning they 
provide services that Americans depend on to operate during 
this COVID-19 pandemic and they are in all of our response 
efforts, according to DHS guidance. We know what happened last 
week, the decision to deport a TPS recipients. In light of the 
Federal appeals court decision, what are your plans for 
deporting TPS holders from the countries of El Salvador, Haiti, 
Nicaragua, and Sudan?
    Mr. Wolf. We are not taking any measures at this time. As 
you know, we cannot do that, I believe, until about 52 days 
after that court decision. Forty-five days of that is allowed 
for individual parties to appeal that decision. We certainly 
expect that decision to be appealed. So basically it starts 
from that 52nd or 53rd day. We then look at a number of those 
TPS decisions that have been issued. But you are probably 
looking, at the earliest, 180 days out before any TPS orders 
are enforced.
    It is still very much in the courts, unfortunately. We will 
continue to play it out in the courts, even though we did have 
a ninth circuit decision last week. They are still very much, 
and there are other lawsuits, I would say, and other court 
cases, depending on the country that we are talking about 
regarding TPS. So all that is to say there is not one answer on 
how we are addressing TPS. The decision was made----
    Senator Rosen. But would you consider speaking now----
    Mr. Wolf [continuing]. In 2017----
    Senator Rosen [continuing]. Particularly----
    Mr. Wolf [continuing]. To end TPS.
    Senator Rosen [continuing]. Of protecting those essential 
workers that are critical to our pandemic response?
    Mr. Wolf. We will continue to look at that. Again, we have 
about 180 days before there is going to be any action taken. 
But these are temporary programs. TPS is a temporary program. 
We litigated, we talked about this in 2017. Policy decisions 
were made by former Secretaries at that time regarding TPS. If 
this is a population that the U.S. Congress feels very 
passionate about, very much like Deferred Action for Childhood 
Arrivals (DACA), very much like some of these other temporary 
populations, then I would encourage Congress to find a lasting 
solution for these individuals.
    Senator Rosen. I would love for us to do that too, and in 
the meantime we are very short of those essential workers in 
many of our communities across this country and during a 
pandemic. I would just urge special consideration of those 
families who are putting their own lives on the line to save 
others as we this week hit over 200,000 families whose lives 
are forever altered by the death of someone that they love. 
Thank you, Mr. Chairman.
    Mr. Wolf. Yes, Senator.
    Chairman Johnson. Thank you, Senator Rosen. Senator Scott?

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Thank you, Chairman Johnson. Secretary Wolf, 
thank you for being here. Talking about TPS, twice in the last 
year I took a bill to the floor, all Republican Senators 
supported it, which would completely revamp the TPS program, 
which, after it expired, would come back to Congress and 
Congress would actually make the decision of what should happen 
with regard to TPS.
    Mr. Wolf. Right.
    Senator Scott. It would immediately have granted TPS to 
Venezuelans, which is very important, especially in my State. 
Unfortunately the Democrats blocked it both times. So it is 
interesting that, there is this interest in doing something 
about TPS, but the Democrats do not want to fix it.
    First of all, I just want to thank you for what you are 
doing. I was just down in Pensacola with--FEMA was down there 
with the hurricane that just hit.
    Mr. Wolf. Right.
    Senator Scott. The individual that runs the Southeast for 
FEMA, Gracia Szczech, does a great job. I just want to thank 
FEMA for their efforts. I know they are not doing it just in 
Florida, but they are doing it around the country, as we have 
had different disasters, and the people that work at FEMA do a 
great job.
    Mr. Wolf. I appreciate that. That is-obviously, when we 
talk about FEMA, we talk about the COVID response a lot, but 
outside of that, their normal every day-to-day work, responding 
to wildfires in California and Oregon, Hurricane Laura in 
Southeast Louisiana, they are still there, still onsite, and 
obviously, in Pensacola and elsewhere. We are into the Greek 
alphabet on named storms.
    Senator Scott. I know.
    Mr. Wolf. It is a very active season, and I appreciate the 
support.
    Senator Scott. Yes. I have been up here--this will be I 
think my 21st month, along with Senator Hawley. I just want to 
tell you my experience with Homeland Security and the people 
that work for you, they are very responsive. Your legislative 
affairs team is very responsive.
    Mr. Wolf. Yes.
    Senator Scott. You get an answer. It is not always exactly 
what you want, but I can tell you what. Everybody I have talked 
to, they are trying to be very responsive.
    One thing I know that is important to you is law 
enforcement, and I just want to ask you how you, I do not know 
if you saw what happened last week. I did a unanimous consent 
that all the Republican Senators signed off on to just--it was 
just a resolution in the Senate supporting our men and women in 
law enforcement. It shocked me, but the Democrats blocked it. I 
cannot imagine not supporting that. And have a lot of wonderful 
men and women that work in law enforcement and how does it make 
the people that work with you feel when you see that people do 
not recognize that they put their lives on the line?
    In my 8 years as Governor, we lost 51 members of law 
enforcement in the line of duty while I was Governor. I mean, 
these people are putting their lives on the line every day. How 
do you think it makes the people feel?
    Mr. Wolf. Yes. It is extremely difficult. DHS is the 
largest law enforcement agency in the country, from Border 
Patrol to ICE to Secret Service and everything in between. We 
have an extensive law enforcement community at the Department. 
It is not the only thing that we do, but it is a big portion of 
what we do. Everywhere I go and I travel and I get the 
opportunity to talk with those law enforcement officers, the 
first thing they say, and they can say a lot of things to me, 
the first thing they say is, ``Thank you. Thank you for talking 
about what we do and how we protect the homeland.''
    They put on a badge, they put on a uniform every day at 
great risk to themselves, and now to their families--I talked 
about doxing earlier--and they are just trying to go to work 
and do their job and protect their communities. When they see 
some of the dialogue that is out there, and trying to paint 
them a certain way with a broad brush, obviously there are bad 
actors in every profession to include law enforcement, we need 
to hold those individuals accountable. But when they start 
talking about law enforcement across the board as being racist 
or whatever it might be, it impacts these individuals. They are 
not robots. They are humans.
    I try to talk to them a lot about, making sure that they 
understand the support that they have at the various highest 
levels of the Department, making sure that we are supporting 
them, not only through training and resources and PPE and in 
COVID environment, but I think a lot of what we do in 
supporting them is what we say publicly and making sure that we 
have their back. We need to hold individuals that abuse that 
accountable, and I will do that from my position. But Federal 
Protective Service, and, we have talked about Portland here a 
little bit, I do not think most people knew about the Federal 
Protective Service, 5 months ago.
    Senator Scott. Right.
    Mr. Wolf. They know about them now. They know about the 
work that they do being unfairly targeted and the like. I 
appreciate those comments, and I will keep talking very 
specifically about the law enforcement mission that the 
Department has.
    Senator Scott. Thank you for doing that. I had the 
opportunity to visit the U.S. Customs and Border Protection 
International Mail Facility in Miami, I guess it was before 
COVID, so I think it was last fall. They went through and 
talked about how they are trying to combat counterfeit goods 
from Communist China. We have seen unbelievable human rights 
abuses. There is an article today. I have not looked at the 
background of it, but on top of what they are doing to the 
Uighurs, they are doing something similar with the Tibetans in 
Communist China and it is disgusting.
    Can you talk a little bit about what you are doing to try 
to crack down on goods that are produced with the State-
sponsored Uighur forced labor, and how you are able to do that, 
and how difficult it is for your mail centers to try to stop 
some of this counterfeiting and try to even deal with human 
rights abuses?
    Mr. Wolf. Yes. I have been to the same mail facility in, or 
sorry, mail facility in Miami, and it is quite an impressive 
operation that they have, as they screen parcels coming in.
    When we talk about China and forced labor, the Department 
took some action recently, along with the administration in 
putting in withhold removal orders for specific companies 
operating in China that have been identified of using forced 
labor. From a CBP perspective, we can put these orders in place 
that are actually fairly effective because we simply do not let 
the product come in. It allows companies that are using those, 
that have relationships with these companies, they are going to 
have to shift. They are going to have to adjust. They are going 
to have to make sure that subcontractors and folks that they 
are using in China are not part of this order, or have not been 
identified as having these abuses, having this forced labor, 
having products made from forced labor.
    Mr. Wolf. We think that they are very effective. Obviously, 
there are other things that the administration can do as far as 
sanctions and other activities. But from a DHS perspective, we 
think that these withhold orders are actually very effective, 
and we are very proud of sort of the piece of the pie that we 
play there, and we are very forceful and leaning forward and 
making sure that we identified these companies that are using 
this forced labor in China and calling them out.
    Senator Scott. Yes. I just want to finish by thanking you. 
I have had the opportunity to meet with DHS individuals in 
Central America. I have met with them along the border with 
Mexico, and I can just tell you they are a class act, trying to 
do their job, and they need the support of Congress. Thank you 
very much.
    Mr. Wolf. Appreciate it.
    Chairman Johnson. Thank you, Senator Scott. I think Senator 
Romney is next on the list, but I think he might have logged 
off. Senator Romney, are you there? If not, we will go to 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Mr. Wolf, welcome. 
Good to see you. Thank you for joining us today.
    I have mentioned this to you before but I think it bears 
remembering, the name Jane Holl Lute may or may not mean 
anything to you.
    Mr. Wolf. Yes.
    Senator Carper. But she used to be Deputy Secretary of the 
Department, and she has testified before us in that capacity 
any number of times. I remember once when she said to us that 
one of her foremost goals as the Deputy Secretary was to get 
the Department of Homeland Security off of GAO's high-risk 
list. She would go meet with Gene Dodaro, the Comptroller 
General, on like a monthly basis, and say this question like, 
``How can we get off your high-risk list?'' They would lay out 
the steps that the Department of Homeland Security needed to 
take, and ultimately succeeded.
    I learned the other day from my staff that DHS is now one 
of three capital-level agencies with over 400 open GAO 
recommendations awaiting action, joining the Department of 
Defense and the Department of Health and Human Services with 
this high number of open recommendations. Among those 
recommendations are 26 priority recommendations related to 
emergency preparedness, related to border and transportation 
security, infrastructure, and cybersecurity, among others.
    We have talked a little bit about this before on the phone, 
but I just want to gauge your interest in if you are confirmed 
as our Secretary to have the same kind of passion that Jane 
Holl Lute held for these issues when she was Deputy Secretary?
    Mr. Wolf. Yes, Senator, and I appreciate the conversation 
that we had on this. We do have about 434 open GAO 
recommendations. That is about a 50 percent decrease from a 
high that the Department had in January 2011, and it is only 
slightly above our all-time low that we had in September 2018.
    As you know, and I am sure Ms. Lute said, our practice at 
the Department is we actually do not close out any GAO 
recommendation until both we and the GAO agree that it is 
closed out. So that may not be the practice across the 
government writ large, but that is the practice at DHS.
    I also point to an April 2020 letter that we received from 
the Comptroller General, highlighting the remarkable effort 
that DHS has implemented, about 83 percent of all GAO 
recommendations during the past 4 years, and that exceeds the 
overall average of most Federal agencies. So that is not to say 
that we do not have more work to do. We do. We get a lot of 
recommendations given our breadth and our mission, and we will 
keep plugging along. It continues to be a focus of mine, not 
only making sure that we respond to the GAO, but also to the 
IG.
    Senator Carper. Good. Thank you. That is encouraging. The 
preamble to the Constitution starts off with these words: ``In 
order to form a more perfect union,'' and the goal of our 
Founding Fathers was perfection, knowing that we would never 
get there, and I think that is a good goal for us in this 
Committee and certainly a good goal for Homeland Security. I 
would urge you to maintain the attention and the commitment 
there.
    Second, a number of us have been down to Central America 
and with a special focus, as you know, on Honduras, Guatemala, 
and El Salvador, the Northern Triangle countries. One of the 
countries, among the three, where we are seeing the most 
illegal migration, as you know, is Guatemala, and a lot of 
folks are coming out of the highlands.
    Mr. Wolf. Yes.
    Senator Carper. I asked my staff, when we were down there, 
I said, ``Why are so many people come out of the highlands?'' 
They said, ``They are farmers. They are agrarian people, and 
they have been going through a series of droughts that have 
decimated their ability to raise crops, including coffee.''
    My colleagues know I am a big root-cause guy, and I do not 
just look at the symptoms of problems. I say, ``What is the 
cause of the problems?'' Do you have any thoughts about a 
connection between the illegal migration of folks out of the 
highlands of Guatemala and what is going on in terms of our 
climate?
    My son, our oldest son, lives out in California. They have 
just been through firestorms from one end of the State to the 
other. My wife was down in Antarctica back in, gosh, in 
January, where they set record temperatures, 70 degrees in 
Antarctica. We are seeing, I think, a record number of maybe 
hurricanes expected to come to our country this year. Something 
is going on here. As it turns out, I think something might be 
going on in Guatemala. What do you think?
    Mr. Wolf. I appreciate the question. We have done extensive 
work with the Northern Triangle countries, with the government 
of Mexico and others over the past 3\1/2\, almost 4 years now. 
I am trying to think of where to start.
    We have signed a number of agreements back in 2019, from 
asylum and cooperative agreements to security agreements, to 
biometric agreements, making sure, from a departmental 
perspective, that we continue to help them from a security 
perspective. Now we work with the interagency. We work with the 
State Department. We work with the United States Agency for 
International Development (USAID) and others to help with 
things like food insecurity. We also address corruption. There 
are a number of other issues that the Northern Triangle 
countries, the countries that you mentioned specifically, are 
dealing with.
    The Department plays a specific role when it comes to 
security. We send teams down there. We have had embedded teams 
in Guatemala, Honduras, El Salvador--obviously, this is pre-
COVID--building up their capacity. Because what we know and 
what they have said to me, officials have said to me 
specifically, is that the more stability that they have in 
their country, so whether that is security, whether that is 
food security, whether that is an economic environment that 
allows individuals to stay there, is best not only for their 
country, but for our country as well.
    We are working as an interagency, as a sort of a full-
government response, and DHS has a piece of that, making sure 
that we provide the resources, the support, the capacity-
building for Central America, for those Northern Triangle 
countries.
    Senator Carper. Thank you. Five or 6 years ago they had a 
Presidential election where, in Guatemala, and there was a 
newcomer who was running. He has actually had his own 
television show. He is a very popular guy. His name is Jimmy 
Morales. His campaign motto was ``Neither a thief, nor a 
crook.'' He got elected to be President. I remember working 
with him from afar, from down there, from afar, trying to 
mentor him and encouraging him to surround himself with 
excellent people and not to follow the same bad path that a 
number of his predecessors had followed, corruption, that sort 
of thing. He ended up leaving in, maybe not disgrace, but in 
just being greatly discredited. It was a huge disappointment.
    There is a woman named Thelma Aldana, who was the attorney 
general (AG) in Guatemala, who wanted to run for President. She 
was in El Salvador meeting with a guy named Bukele, who is now 
the President there, and figuring out how he got elected 
President in El Salvador and how that would help her in her 
campaign in Guatemala. Then she was not allowed to come back 
into her country. Could not come back, was denied as attorney 
general. She was death on crime, death on corruption.
    Why do you suppose we never stood up for her? Not to say 
that they ought to elect her, but at least to try to encourage 
the authorities in Guatemala to let her come back and run?
    Mr. Wolf. I am not sure I can answer that question, 
Senator. It was before my time, so I am not specifically 
familiar with that individual. What I can tell you, though, is 
that the relationship that we have with President Giammattei's 
administration in Guatemala is good. They are a strong partner. 
They understand. They want to continue sort of the agreements 
that we have put in place with Guatemala, as well as the other 
countries. They have committed to that and we continue to build 
on that progress.
    When we talk about the administration there today, they are 
good partners. We continue to work with them. We think we can 
always do more. Then obviously COVID has been a challenging 
time for all of us, particularly the Northern Triangle. We have 
provided resources to increase their testing, to increase some 
of their quarantine capacity as well. We continue to try to 
support them on a number of fronts.
    Senator Carper. All right. Thanks very much.
    Mr. Wolf. Thank you.
    Chairman Johnson. Thank you, Senator Carper. Senator 
Hawley?

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Mr. Wolf, thank 
you for being here. I enjoyed speaking with you last week in 
anticipation of this hearing.
    Let me talk to you a little bit about Operation LeGend, 
which the Department is participating in, which is so important 
to my home State. Just last week with another tragic shooting 
death in the city of St. Louis, that marked that city's 195th 
death this year, 3 months to go, of course, in a year that 
already surpasses, though, last year's total, which was itself 
horrific, 194 killings in 2019.
    We are seeing a surge in violent crime across my State, 
unfortunately, and across the United States. This is one of the 
reasons why I so appreciate your Department's cooperation and 
help with Operation LeGend, which is itself named for a 
Missouri resident, LeGend Taliferro, a 4-year-old boy who was 
killed sleeping in his home in Kansas City, Missouri.
    Can you give us an update? When you were here in August you 
talked a little bit about, actually talked at some length, 
about the Department's involvement in Operation LeGend. Can you 
just give us an update of where those efforts stand?
    Mr. Wolf. Sure. Absolutely. We continue to support the 
Department of Justice. I talked a little bit about mutual aid 
support, as far as from a law enforcement perspective. Any time 
the Department of Justice, calls up tells us they need 
additional investigators, so mainly we are talking about ICE, 
Homeland Security investigators that are involved every day 
with criminal organizations, illicit crime, firearms, anything 
that comes across the border and has a nexus inside the United 
States, they get involved in. They are the primary response as 
we work with Operation LeGend in various cities throughout the 
country, to include in Missouri. We are happy to do that. ICE 
Homeland Security Investigations (HSI) is happy to lend their 
expertise and specifically focus on some of that violent crime 
activity that is occurring in those areas.
    Obviously, Senator, the idea of Operation LeGend is surge 
resources in there so that you can close cases quicker. You can 
get them to the investigative stage quicker. You can get them 
through that investigative and prosecutorial stage. You want to 
speed up the timeframe, because as you know being the Attorney 
General, it takes time to get through all this. And so you want 
to flood the zone with resources to address the issue, and we 
are happy to be a part of that.
    Senator Hawley. Thank you for what you are doing, and as 
someone who served as the Attorney General of my State, my 
State's former chief law enforcement official, I can tell you 
that having additional resources--I mean, we always welcomed 
prosecutorial help, investigative help. I know that Missouri 
law enforcement officials are very grateful. They told me that. 
They have said that on the record. I am very grateful for what 
you are doing, and thank you for your partnership with DOJ and 
your help to our local officials, who oftentimes are very 
strapped for resources. I mean, that is just the fact of the 
matter in all times, but especially in these times. Thank you 
for that Federal help.
    I want to shift topics and talk for a second about human 
trafficking. Earlier this year, the Department announced a new 
strategy to end human trafficking and recognize that issue as a 
priority for the Homeland Security Department. I really applaud 
this new focus. I have introduced legislation in this Congress 
to authorize a comprehensive study to determine how widespread 
human trafficking is now in this country. We have not had a 
comprehensive study of this sort in over a decade. I think it 
is time we found out.
    Can you just give us an update on the implementation of the 
Department's strategy on human trafficking and what progress 
has been made?
    Mr. Wolf. Sure. Absolutely. This is an area I do not know 
that the Department has really talked about it in length. 
Obviously, we have a blue campaign and again, ICE HSI does a 
lot of work in this human trafficking area. But it is not an 
area the Department has traditionally talked about. I think we 
are trying to change that. We have tried to change that 
specifically over the past year, but even if you go back 2 to 3 
years, we have a strategy, as you talked about at the beginning 
of this year.
    In October we will be opening a human trafficking center at 
the Department. Again, we are trying to signal that this is a 
threat. This is sort of a threat line that we continue to focus 
on at the Department, making sure that we are applying all of 
the resources throughout the Department into one center to 
attack this issue head on.
    I can get back to you on the specific updates from the 
strategy itself, but let me just leave you with the fact that 
we take this seriously. We are devoting extensive resources to 
it. This is not just a one-off issue that we like to tack on at 
the end of the sentence. This is an issue that we care deeply 
about, and we are putting a lot of time and effort into it.
    Senator Hawley. I certainly appreciate your focus on it and 
I think that the Department did so much last year to raise 
awareness about the levels of human trafficking we were seeing 
on the Southern border and cartels' involvement in human 
trafficking, and the horrific details about the use of 
children, the selling, the renting of children and how 
trafficking rings were doing this on the Southern border. That 
awareness, I mean, getting those facts out there and then 
coming up with a strategy to combat that, I think, is so key 
and the Department, I think, is stepping up to that. I 
encourage you to continue to make that a focus.
    Mr. Wolf. I appreciate that. We continued that along the 
Southwest border with our fraudulent family unit program, which 
is making sure that as individuals come across that border and 
they do claim to be a family that we hold those individuals 
accountable. We are doing that a couple of different ways, 
Rapid deoxyribonucleic acid (DNA) and elsewhere. We continue to 
find a high amount of fraud.
    Senator Hawley. Yes.
    Mr. Wolf. Whether these are individuals and children that 
are being trafficked or being smuggled or the like, we are 
finding a high percentage of fraud there.
    Senator Hawley. Human trafficking has to be the worst of 
human rights abuses. It truly is modern-day slavery. It is a 
travesty to have it in any form in this country. I applaud you 
and encourage you to continue the efforts to use the full 
weight of the Department to root it out and to bring those 
criminals who are perpetrating it, whether inside this country 
or outside, by pushing it into the country, to bring them to 
justice.
    Let me talk to you about another form of human rights 
abuses going on in China. Senator Scott mentioned this and I 
just want to follow up. I was delighted to see the CBP take 
action last week by issuing five new withhold release orders on 
various consumer products made by companies in the Xinjiang 
region and one Chinese facility that is widely considered to be 
a concentration camp.
    I think we need to do even more. I have introduced 
legislation that would require all major multinational 
corporations to certify that the whole of their supply chains 
are slave free. Can you just give us a sense? To your 
knowledge, is CBP currently weighing any more comprehensive 
bans, limits on the importation of goods from the region of 
Xinjiang rather than just bans on specific producers?
    Mr. Wolf. The answer is yes to both of those. We continue 
to look at not only sort of a regional approach, but also 
additional producers. CBP also took similar actions, I believe, 
with a company out of Malaysia several months ago as well.
    Again, China is obviously a big focus, but we are also 
looking across the globe, making sure that we hold folks that 
are participating in forced labor accountable. I believe so far 
this fiscal year (FY), CBP has issued 12 withhold release 
orders (WROs), including eight again from China itself. We will 
continue to lean in on that.
    Senator Hawley. Very good. Again, I salute your work on 
that and hope that we will be able to push forward and to do 
our best to root out the sort of forced labor and certainly to 
end any American complicity in it.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley. Senator 
Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. I appreciate 
Acting Secretary Wolf for joining us today.
    I want to focus my questions today on several issues 
related to border security and immigration, key issues, of 
course, in my home State of Arizona. I remain committed to 
finding bipartisan and common-sense solutions to secure 
Arizona's border and protect public health while also treating 
migrants fairly and humanely. Strong border security and a fair 
immigration system should be mutually reinforcing goals, and I 
am always ready to work with my colleagues in a bipartisan way 
to achieve these goals.
    My first question for you, Mr. Wolf, is your Department has 
not completed environmental stewardship plans (ESP) for border 
barrier projects in Arizona, despite local stakeholders 
expressing significant concerns about the impact of these 
projects on water and cultural resources. While my office has 
received information from DHS that these reports will be 
available soon, construction began before mitigation plans were 
complete. I will note that my office received reports of 
dynamite blasting in Guadalupe Canyon yesterday related to wall 
construction.
    Do you believe that ESP should be completed before DHS 
begins construction on a specific project or it takes action, 
such as blasting with dynamite that will have a permanent 
impact on our land? Could you explain why or why not?
    Mr. Wolf. Sure. Thank you, Senator. We continue at the 
Department, mainly through CBP obviously, in conjunction with 
the U.S. Army Corps of Engineers (USACE) who is building our 
border wall, a new border wall system, to minimize or mitigate 
any impacts to natural cultural resources along the Southwest 
border. I will say the president did issue a national emergency 
to build a new border wall system, so where appropriate we are 
waiving regulations to make sure that that work does not slow 
down, is not delayed, and we continue to build a new border 
wall system. That is not to say, again, that we take our 
environmental responsibilities very seriously, and CBP 
continues to solicit information from the public on how to 
address environmental impacts.
    Now, as we talked earlier, I believe last week, on the 
environmental stewardship plans, those are almost to 
completion. Those should be issued in October, and we are happy 
to share those with you, those specifically regarding the 137 
miles in the Tucson sector. We will continue to abide by our 
responsibilities to make sure that we are good stewards of the 
environment, making sure that we are doing everything that we 
can to minimize and mitigate impacts to the environment as we 
build that new border wall system. But it has been very clear 
that that is a national security issue, and we are going to 
continue to build that new border wall system.
    Senator Sinema. Thank you. I just want to note that the 
reports are not available yet, and yet there was dynamiting in 
the Guadalupe Canyon yesterday. It seems like there is a cart-
before-the-horse situation, and I do want to note that 
residents of Southern Arizona have expressed intense concern 
about this. I hope this is something that you would be willing 
to address in the order in which you move forward with these 
projects.
    My second question is a common theme that I have raised in 
many of our conversations, is the insufficient communication 
between DHS stakeholders in Arizona and my office on a variety 
of issues. This includes the border barrier construction 
concerns we just discussed, but it also includes a wide array 
of other topics like the use of hotels to retain migrant 
children, conditions in ICE detention facilities, consultation 
with Arizona's Tribal leaders, crossing restrictions at our 
ports of entry, and the use of Title 42 authority at the 
border.
    My office has asked you and your office to provide the 
guidance that your Department uses to keep detainees safe and 
ensure that trafficking victims are not returned to danger in 
Mexico. I have also asked you to take some common-sense steps 
such as having proper back-and-forth consultation with Arizona 
Tribes on issues such as wall construction.
    Can you tell me what the specific steps that you have taken 
to improve communication between DHS and our State, local and 
Tribal partners in Arizona?
    Mr. Wolf. Sure, Senator. I have talked to leadership, both 
at ICE, based off of conversations that you and I have had, as 
well as CBP, making sure that those lines of communication, it 
starts at the local level. Obviously, there is only so much I 
can do from D.C., but I need to make sure that ICE area 
directors, CBP, port directors there in Arizona are making sure 
that they are communicating with their individual stakeholders. 
Obviously, I have gone to Arizona numerous times over the past 
10 months, and every time I go I start off with a roundtable of 
DHS leadership, making sure that they understand what my 
priorities are.
    The top priority, usually in all of those roundtables, is 
about communication, so making sure that they are communicating 
to their stakeholders why we are putting in a border 
restrictions at ports of entry and why we are doing what we do.
    We addressed the issue, I believe, we had with the mayor of 
Phoenix, trying to understand more about the use of hotels for 
UACs. Again, that is a practice that DHS has been utilizing for 
a number of years, over a decade. But again, was able to get 
the ICE director on the phone with the mayor, and I think that 
issue has been resolved as well.
    We will continue to make sure that we are communicating. I 
tried to meet with a number of Tribes in Arizona. It was 
unfortunately right at the beginning of the outbreak of COVID 
and I believe the reservation was closed at that time. So 
continuing to be willing to meet with any and all individuals, 
but it also starts there at the local level within the State of 
Arizona.
    Senator Sinema. Thank you, and I appreciate that. I know 
the mayor is eager to have constant communication and an open 
line of communication with folks representing DHS in the metro 
Phoenix community.
    My last question. Currently, DHS provides a migrant who is 
going through Prompt Asylum Claim Review (PACR) or Humanitarian 
Asylum Review Process (HARP) with a 48-hour consultation window 
prior to their interview with a USCIS asylum officer. But 
migrants in CBP custody have inconsistent and limited ability 
to receive calls back from legal representatives or nonprofit 
organizations. Can you talk about how you plan to address this 
issue so that migrants in these programs can receive the phone 
calls from counsel?
    Mr. Wolf. Absolutely, Senator. PACR and HARP are the two 
programs, I believe, you are referencing. Those are expedited 
removal programs. Obviously, that is authority granted to us by 
Congress to make sure that we do those removal proceedings in 
an expedited manner. We make sure that they have access to 
counsel, that they have all of their due process rights through 
that expedited process, but it is an expedited process, and we 
try to get that down to a certain number of days. We continue 
to make sure, again, that they have access to counsel or any 
other legal services that they may need to represent themselves 
or their clients.
    But I think it is important to keep in mind that PACR and 
HARP are part of the expedited removal process the Department 
goes through every day. It is different than other removal 
proceedings where perhaps that will drag on for days, sorry, 
weeks and months, and there are multiple opportunities. The 
expedited removal process is again defined by Congress and we 
are trying to do that in a very expedited manner. We continue 
to allow them access to counsel and any other, again, legal 
services that they need.
    Senator Sinema. Last comment I will make, Mr. Chairman. I 
know that my time has expired. I just want to note that only 13 
of over 2,000 HARP cases and only 18 of over 2,700 PACR cases 
have had a legal representative in their proceedings. And so 
there is clearly a lot of work that we have yet to do here.
    Thank you, Mr. Chairman. I yield back.
    Chairman Johnson. Thank you. Thanks, Senator Sinema.
    Again, Acting Secretary Wolf, I want to thank you for your 
service and sacrifice. I want to personally thank your wife and 
your kids. They do not get to see you as much as I am sure they 
would like to. Again, I appreciate that.
    Please convey not only my personal appreciation but I think 
the Committee's appreciation to all the men and women who serve 
with you, working day in and day out 24/7 trying to keep our 
homeland safe. God bless all of you. We really appreciate it.
    The nominee has made financial disclosures and provided 
responses to biographical and pre-hearing questions\1\ 
submitted by this Committee. Without objection, this 
information will be made a part of the hearing record with the 
exception of the financial data, which are on file and 
available for public inspection in the committee offices.
---------------------------------------------------------------------------
    \1\ The information for Mr. Wolf appears in the Appendix on page 
46.
---------------------------------------------------------------------------
    The hearing record will remain open until 5 p.m. tomorrow, 
September 24th, for the submission and statements and questions 
for the record. Like many of our Committee Members mentioned, 
it is important that we have a confirmed Secretary for the 
Department of Homeland Security. Acting Secretary Wolf, I will 
do everything I can to move this nomination along as 
expeditiously as possible.
    So again, thank you. This hearing is adjourned.
    Mr. Wolf. Thank you.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
